Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    MEDICARE COMPLIANCE
         REVIEW OF
UNIVERSITY OF UTAH HOSPITAL
    FOR CALENDAR YEARS
       2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      November 2013
                                                      A-07-12-01107
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for inpatient
costs associated with the beneficiary’s stay.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these payments to hospitals using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for outpatient and inpatient services.

The University of Utah Hospital (the Hospital) has 535 beds and is located in Salt Lake City,
Utah. Medicare paid the Hospital approximately $259 million for 294,944 outpatient and 13,985
inpatient claims for services provided to Medicare beneficiaries during calendar years (CYs)
2009 and 2010 based on CMS’s National Claims History data.

Our audit covered $5,437,897 in Medicare payments to the Hospital for 243 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 164
outpatient and 79 inpatient claims with dates of service in CYs 2009 or 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing outpatient and inpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 165 of the 243 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 78 claims for CYs 2009 and 2010. For 76 of the 78 claims, the
hospital received net overpayments of $256,259. Specifically, 65 outpatient claims had billing
errors that resulted in net overpayments of $134,586, and 11 inpatient claims had billing errors
that resulted in overpayments of $121,673.

For the remaining two claims with billing errors, we were unable to determine the amount of
overpayment, either during our fieldwork or through extensive coordination with the Hospital
since then. These outpatient claims, for which the Hospital received $71,248 in Medicare
payments, had multiple billing errors. However, we were not able to determine the amount of
overpayment for the portions of the claims that were incorrectly billed. The Hospital informed
us that it was working with the Medicare contractor to reprocess the claims.

These errors occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims and/or did not fully understand the Medicare billing
requirements within the selected risk areas that contained errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $256,259, consisting of $134,586 in net overpayments
       for the 65 incorrectly billed outpatient claims and $121,673 in overpayments for the 11
       incorrectly billed inpatient claims,

   •   continue to work with the Medicare contractor to determine the amount of overpayment
       for the remaining two outpatient claims of $71,248 and refund the overpayment amount,
       and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed with our recommendations to
refund overpayments to Medicare and to resubmit claims for which we were not able to
determine the amount of overpayment. Regarding our third recommendation, the Hospital
described corrective actions that it had taken to ensure compliance with Medicare requirements.

After providing its comments, the Hospital advised us of its efforts to work with the Medicare
contractor to determine the amount of overpayment for the remaining two outpatient claims and
refund that amount. We acknowledge the steps that the Hospital has taken to resubmit these
claims in accordance with Medicare billing requirements.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Outpatient Prospective Payment System ........................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Claims at Risk for Incorrect Billing ................................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         University of Utah Hospital ...........................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................5

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................5
          Incorrect Healthcare Common Procedure Coding System Codes
             and/or Number of Units .............................................................................................5
          Manufacturer Credits for Replaced Medical Devices Not Reported .............................7
          Incorrect Coding on Outpatient Claim to Identify Beneficiary Status Change .............7
          Incorrect Number of Units for Doxorubicin Hydrochloride ..........................................7
          Incorrect Healthcare Common Procedure Coding System Code
            for Lupron Injections ..................................................................................................8
          Incorrect Billing for Inpatient-Only Service Under
            Outpatient Prospective Payment System ....................................................................9

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................9
          Incorrect Diagnosis-Related Groups ..............................................................................9
          Incorrect Discharge Status ...........................................................................................10
          Incorrect Number of Units ...........................................................................................10
          Incorrect Source of Admission ....................................................................................10

      RECOMMENDATIONS ....................................................................................................11

      AUDITEE COMMENTS….................................................................................................11

      OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................11

OTHER MATTER.....................................................................................................................12




                                                                     iii
APPENDIXES

   A: RESULTS OF REVIEW BY RISK AREA

   B: AUDITEE COMMENTS




                                 iv
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

For beneficiaries who receive repetitive or chemotherapy services in a hospital outpatient setting,
the hospitals may submit consolidated claims on a monthly basis or at the conclusion of
treatment. For beneficiary stays incurring extraordinarily high costs, § 1833(t)(5) of the Act
requires that CMS make additional payments (called outlier payments) to Medicare-participating
hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.


1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

    •   outpatient claims with payments greater than $25,000,

    •   outpatient and inpatient claims paid in excess of charges,

    •   outpatient claims billed with observation services that resulted in outlier payments,

    •   outpatient claims billed for Doxorubicin Hydrochloride,

    •   outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims billed for Lupron injections,

    •   outpatient claims billed for surgeries with units greater than one,

    •   outpatient claims billed for intensity modulated radiation therapy planning services,

    •   outpatient claims billed with modifiers,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient transfers,

    •   inpatient claims with payments greater than $150,000, and

    •   inpatient psychiatric facility (IPF) emergency department adjustments.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims outpatient and inpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” In addition, §§ 1815(a) and
1833(e) of the Act preclude payment to any provider of services or other person without
information necessary to determine the amount due the provider.



                                                   2
Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, § 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly. Chapter 23, § 20.3, of the Manual states that providers must use HCPCS
codes for most outpatient services.

University of Utah Hospital

The University of Utah Hospital (the Hospital) has 535 beds and is located in Salt Lake City,
Utah. Medicare paid the Hospital approximately $259 million for 294,944 outpatient and 13,985
inpatient claims for services provided to Medicare beneficiaries during calendar years (CYs)
2009 and 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing outpatient and inpatient services on selected claims.

Scope

Our audit covered $5,437,897 in Medicare payments to the Hospital for 243 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 164
outpatient and 79 inpatient claims with dates of service in CYs 2009 or 2010.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and did not use
medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the outpatient and
inpatient claims selected for review because our objective did not require an understanding of all
internal controls over the submission and processing of claims. We established reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report focuses on selected outpatient and inpatient claims and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during February and March 2012.




                                                 3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   held discussions with CMS and Medicare contractor officials to gain an understanding of
       Medicare requirements for billing outpatient and inpatient claims;

   •   extracted the Hospital’s outpatient and inpatient paid claim data from CMS’s National
       Claims History file for CYs 2009 and 2010 (audit period);

   •   obtained information on known credits for replaced medical devices from the device
       manufacturers for the audit period;

   •   used computer matching, data mining, and other data analysis techniques to identify
       claims potentially at risk for noncompliance with selected Medicare billing requirements;

   •   judgmentally selected 243 claims (164 outpatient and 79 inpatient) for detailed review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials on September 7, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                               4
                              FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 165 of the 243 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 78 claims for the audit period. For 76 of the 78 claims, the
hospital received net overpayments of $256,259. Specifically, 65 outpatient claims had billing
errors that resulted in net overpayments of $134,586, and 11 inpatient claims had billing errors
that resulted in overpayments of $121,673.

For the remaining two claims with billing errors, we were unable to determine the amount of
overpayment, either during our fieldwork or through extensive coordination with the Hospital
since then. These outpatient claims, for which the Hospital received $71,248 in Medicare
payments, had multiple billing errors. However, we were not able to determine the amount of
overpayment for the portions of the claims that were incorrectly billed. The Hospital informed
us that it was working with the Medicare contractor to reprocess the claims.

These errors occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims and/or did not fully understand the Medicare billing
requirements within the selected risk areas that contained errors. For the results of our review by
risk area, see Appendix A.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 67 of the 164 selected outpatient claims that we
reviewed. 3 These errors resulted in net overpayments of at least $134,586.

Incorrect Healthcare Common Procedure Coding System Codes
and/or Number of Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1,
§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, chapter 4, § 20.4, of the Manual states: “The definition of service units
… is the number of times the service or procedure being reported was performed.”

For 34 of 164 selected outpatient claims, the Hospital submitted claims to Medicare with
incorrect HCPCS codes and/or incorrect number of units of services provided, and/or submitted
claims without required modifiers (10 claims had multiple errors):




3
 As explained below, we were unable to determine the amount of overpayment for 2 of the 67 incorrectly billed
outpatient claims.



                                                        5
       •   For 23 claims, the Hospital billed Medicare using incorrect HCPCS codes. For these
           claims, the Hospital billed for 1,487 services, 4 of which we found 179 that were in error:

               o In 112 billed services, the Hospital did not have documentation supporting the
                 HCPCS codes billed.

               o In 35 billed services, the Hospital billed for a service under a HCPCS code that
                 packaged reimbursement for this service together with reimbursement for other
                 services. Contrary to Federal requirements, the Hospital billed for this service
                 again under a separate HCPCS code to claim reimbursement specifically for the
                 service. Accordingly, the additional bill to claim reimbursement specifically for
                 the service was not allowable for Medicare reimbursement.

               o In 32 billed services, the Hospital billed for incorrect HCPCS codes.

       •   For 15 claims, the Hospital billed Medicare for an incorrect number of units of service.
           For example, for 1 claim, rather than billing 10 units for HCPCS code J2562 (injection,
           Plerixafor), the Hospital billed 24 units.

       •   For five claims, the Hospital billed an incorrect number of units for observation, which
           resulted in incorrect outlier payments. For example, the Hospital billed for 34 hours of
           observation instead of 25 hours. Due to the incorrect number of units billed, charges
           were overstated, resulting in a higher outlier payment than was warranted.

       •   For two claims, the Hospital billed Medicare without the required modifier reflecting the
           work performed for bilateral procedures.

The Hospital stated that the majority of these errors occurred due to human error. For four
claims with incorrect units of service, the Hospital stated that an incorrect design of an edit
caused an incorrect number of units to be billed.

As a result of the errors discussed above, the Hospital received overpayments of $62,813 for 32
of the 34 claims. For the remaining two claims of $71,248, we were unable to determine the
amount of overpayment. 5 Specifically, both claims were incorrectly billed for a service
separately instead of billing the service under a HCPCS code that packaged reimbursement with
other services. For this reason, we could not determine the associated charges that should have
been used to calculate the associated outlier payments. In addition, one of these claims was
billed for an incorrect number of units of drugs, and we could not determine the correct payment
that Medicare should make to the Hospital.



4
 We refer to “services” within the context of “claims” because, as stated in the Background, the OPPS permits the
Hospital to submit consolidated claims for repetitive or chemotherapy services on a monthly basis or at the
conclusion of treatment.
5
    As of September 10, 2013, the Hospital had not identified or refunded the related overpayments.


                                                           6
Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3,
explain how a provider should report no-cost and reduced-cost devices under the OPPS. For
services furnished on or after January 1, 2007, CMS requires the provider to report the modifier
“FB” and reduced charges on a claim that includes a procedure code for the insertion of a
replacement device if the provider incurs no cost or receives full credit for the replaced device.

For 2 of 164 selected outpatient claims, the Hospital received manufacturer credits for replaced
medical devices but did not report the modifier “FB” or reduced charges on its claims. For one
claim, the Hospital stated that these errors occurred due to human error. For the other claim, the
Hospital stated that the error occurred due to a lack of controls to ensure that claims were
properly billed when a manufacturer credit was received. As a result of these errors, the Hospital
received overpayments of $28,350.

Incorrect Coding on Outpatient Claim to Identify Beneficiary Status Change

The Manual, chapter 1, § 50.3.2, states that a hospital may change the beneficiary’s status from
inpatient to outpatient and submit an outpatient claim under certain conditions. When the
hospital submits an outpatient bill for services furnished to a beneficiary whose status was
changed from inpatient to outpatient, the hospital is required to report condition code 44 on the
outpatient claim. In addition, if the conditions for use of condition code 44 are not met, the
hospital may submit a claim for covered “Part B Only” services that were furnished to the
inpatient.

For 1 of 164 selected outpatient claims, the beneficiary’s status changed from inpatient to
outpatient, but the Hospital did not report condition code 44 in accordance with the Manual’s
requirements.

The Hospital stated that this error occurred due to human error and a misunderstanding regarding
the use of condition code 44. As a result of this error, the Hospital received an overpayment of
$15,543.

Incorrect Number of Units for Doxorubicin Hydrochloride

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1,
§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” The Manual, chapter 17, § 90.2.A, states: “It is … of great importance that
hospitals billing for [drugs] make certain that the reported units of service of the reported



                                                   7
HCPCS code are consistent with the quantity of a drug … that was used in the care of the
patient.” If the provider is billing for a drug, according to chapter 17, § 70, of the Manual,
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

For 25 of 164 selected outpatient claims, the Hospital incorrectly submitted claims to Medicare
with incorrect number of units for Doxorubicin Hydrochloride. 6 For example, for one claim,
rather than billing five units of Doxorubicin Hydrochloride, the Hospital billed six units.

The Hospital stated that these errors occurred due to a misunderstanding of the requirements for
the documentation of the amount of the drug that was not used. As a result of these errors, the
Hospital received overpayments of $11,114.

Incorrect Healthcare Common Procedure Coding System Code
for Lupron Injections

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1,
§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” The Manual, chapter 17, § 90.2.A, states: “It is … of great importance that
hospitals billing for [drugs] make certain that the reported units of service of the reported
HCPCS code are consistent with the quantity of a drug … that was used in the care of the
patient.” If the provider is billing for a drug, according to chapter 17, § 70, of the Manual,
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

The Food and Drug Administration (FDA) identifies and reports drug products with a universally
used unique, three-segment number called the national drug code (NDC). Each quarter, CMS
provides Medicare contractors with an updated listing that cross-references the NDC to the drug
name, billing units, and HCPCS code.

Lupron is a drug commonly used to treat hormone-dependent cancers. The FDA approved
Lupron for the treatment of disorders relating to the uterus and for the treatment of prostatic
cancer. According to the NDCs in effect during our audit period, Lupron was available for the
treatment of: (1) disorders relating to the uterus, in doses of 3.75 mg once a month or 11.5 mg
once every 3 months, and was linked to HCPCS code J1950; and (2) prostatic cancer, in doses of
7.5 mg once a month, 22.5 mg once every 3 months, or 30 mg once every 4 months; and was
linked to HCPCS code J9217.

For 4 of 164 selected outpatient claims, the Hospital incorrectly billed Medicare for Lupron
injections. For three of the four claims that were in error, the Hospital billed Medicare using
HCPCS code J1950 when its documentation showed that according to administered dosage, the
Hospital should have billed Medicare using HCPCS code J9217. For the remaining claim, the
6
    This drug is used in the chemotherapy treatment of a wide range of cancers.


                                                           8
Hospital did not have documentation supporting the claim for Lupron. The Hospital stated that
these errors occurred due to an error in the chargemaster that did not differentiate between
HCPCS J1950 and J9217. 7 As a result of these errors, the Hospital received overpayments of
$10,404.

Incorrect Billing for Inpatient-Only Service Under
Outpatient Prospective Payment System

The Manual, chapter 4, § 180.7, states that no payment is made under the OPPS for services that
CMS designates to be “inpatient-only” services. In addition, CMS does not pay for all other
services under the OPPS on the same day as the “inpatient-only” procedure.

For 1 of 164 selected outpatient claims, the Hospital incorrectly billed services to the OPPS that
occurred on the same day as an inpatient-only procedure. Because the Hospital billed these
services under the OPPS, Medicare payment is not allowable.

The Hospital stated that this error occurred due to human error. As a result of this error, the
Hospital received an overpayment of $6,362.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 11 of the 79 selected inpatient claims that we
reviewed. These errors resulted in overpayments of $121,673.

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” Chapter 1, § 80.3.2.2, of
the Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 4 of 79 selected inpatient claims, the Hospital submitted claims to Medicare with incorrect
DRGs. For example, the Hospital used the DRG for acute leukemia without a major operating
procedure with major complication/comorbidity rather than using the DRG for acute leukemia
without a major operating procedure without major complication/comorbidity. The Hospital
stated that the four errors occurred due to human error in coding diagnosis codes that were not
supported by medical records, resulting in incorrect DRGs. As a result of these errors, the
Hospital received overpayments of $88,058.




7
 A hospital’s (or other provider’s) chargemaster contains data on every chargeable item or procedure that the
provider offers.


                                                         9
Incorrect Discharge Status

Federal regulations (42 CFR § 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a home under a written plan of care for the provision of home
health services from a home health agency and those services begin within 3 days after the date
of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the above
circumstances is paid a graduated per diem rate for each day of the patient’s stay in that hospital,
not to exceed the full DRG payment that would have been paid if the patient had been discharged
to another setting (42 CFR § 412.4(f)).

For 1 of 79 selected inpatient claims, the Hospital incorrectly billed Medicare for a patient
discharge that should have been billed as a transfer. Specifically, the Hospital coded the
discharge status as “patient discharged to home” instead of “patient discharged to home under a
written plan of care for the provision of home health services.” Thus, the Hospital received the
full DRG payment instead of the graduated per diem payment it would have received if it had
correctly coded the patient’s discharge status. The Hospital stated that this error occurred due to
human error and conflicting documentation between the physician’s and the case manager’s
notes. As a result of this error, the Hospital received an overpayment of $21,258.

Incorrect Number of Units

Section 1815(a) of the Act precludes payment to any provider of services without information
necessary to determine the amount due the provider. Chapter 1, § 80.3.2.2, of the Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately.” In
addition, chapter 3, § 20.7.3.A, of the Manual states that hospitals receive an add-on payment for
the costs of furnishing blood-clotting factors to certain Medicare beneficiaries: “The clotting
factor add-on payment is calculated using the number of units … billed by the provider under
special instructions for units of service.”

For 1 of 79 selected inpatient claims, the Hospital billed Medicare with the incorrect number of
units for the blood-clotting factor. Specifically, the Hospital did not have documentation
supporting 8,800 of 474,000 units billed. The Hospital stated that this error occurred due to a
documentation error in the medical record. As a result of this error, the Hospital received an
overpayment of $12,074.

Incorrect Source of Admission

Federal regulations (42 CFR § 412.424(d)(1)(v)) state that CMS will adjust the Federal per diem
base rate upward for the first day of a Medicare beneficiary’s IPF stay to account for the costs
associated with maintaining a qualifying emergency department. Chapter 3, § 190.6.4, of the
Manual states that CMS makes this additional payment regardless of whether the beneficiary
used emergency department services. However, 42 CFR § 412.424(d)(1)(v)(B) states that the
IPF would not receive the additional payment if the beneficiary was discharged from the acute



                                                10
care section of the same hospital. In addition, the Manual, chapter 3, § 190.6.4.1, states that the
source-of-admission code “D” is reported by an IPF to identify patients who have been
transferred to the IPF from the same hospital.

For 5 of 79 selected inpatient claims, the Hospital incorrectly coded the source of admission for
beneficiaries who were admitted to the IPF upon discharge from the Hospital’s acute care
section. For each of the five claims, the Hospital should have used the source-of-admission code
“transfer to inpatient psychiatric facility from hospital.” Instead, the Hospital incorrectly used
the source-of-admission code “admission from a non-healthcare point of origin” on four claims
and “admission from the emergency room” on the remaining claim. The Hospital stated that the
errors occurred due to human error. As a result of these errors, the Hospital received
overpayments of $283.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $256,259, consisting of $134,586 in net overpayments
       for the 65 incorrectly billed outpatient claims and $121,673 in overpayments for the 11
       incorrectly billed inpatient claims,

   •   continue to work with the Medicare contractor to determine the amount of overpayment
       for the remaining two outpatient claims of $71,248 and refund the overpayment amount,
       and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital agreed with our recommendations to
refund overpayments to Medicare and to resubmit claims for which we were not able to
determine the amount of overpayment. Regarding our third recommendation, the Hospital
described corrective actions that it had taken to ensure compliance with Medicare requirements.

In a footnote on its comments, the Hospital stated that we removed an inpatient claim with an
underpayment of approximately $200,000 from the scope of our audit.

The Hospital’s comments appear in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

At the time that we issued our draft report, we were unable to determine the amount of
overpayment for seven outpatient claims. After providing its comments, the Hospital
resubmitted five of these claims for which the overpayments were determined to be a total of
$33,180. We updated this final report for these five claims, which included increasing the
amount of total overpayments from $223,079 to $256,259.


                                                 11
The Hospital also advised us of its efforts to work with the Medicare contractor to determine the
amount of overpayment for the remaining two outpatient claims and refund that amount. As of
September 10, 2013, the Hospital had not identified or refunded the related overpayments. We
acknowledge the steps that the Hospital has taken to resubmit these claims in accordance with
Medicare billing requirements.

Regarding the inpatient claim that the Hospital referred to in the footnote on its comments, we
removed this claim and other claims from our scope after we learned that CMS had previously
selected the claims as part of other reviews.

                                      OTHER MATTER

We identified two outpatient claims for which the Medicare contractor paid the Hospital at an
orphan drug rate instead of at the standard rate, which resulted in an overpayment of $9,016.
The term “orphan drugs” is commonly applied to those drugs that treat diseases and conditions
that are considered rare. The Hospital stated that it submitted these claims pursuant to Federal
requirements and that the overpayments occurred because of errors that transpired when the
Medicare contractor processed the claims. Accordingly, we will forward detailed data on these
claims to the Medicare contractor for further adjudication.




                                               12
                          APPENDIX A: RESULTS OF REVIEW BY RISK AREA

                                                                              Value of        Claims With           Value of
                                                              Selected        Selected        Under / Over-         Net Over-
                     Risk Area                                Claims          Claims           payments             payments
Outpatient
Claims With Payments Greater Than $25,000                              31    $1,009,849                      18             $39,431
Claims Paid in Excess of Charges                                       25        177,452                       7             35,000
Claims Billed With Observation Services That
                                                                        8         78,787                       8             22,980
Resulted in Outlier Payments
Claims Billed for Doxorubicin Hydrochloride                            39        144,373                     25              11,114
Manufacturer Credits for Replaced Medical
                                                                        1         27,929                       1             10,985
Devices
Claims Billed for Lupron Injections                                     4         12,526                       4             10,404
Claims Billed for Surgeries With Units Greater
                                                                        4         13,896                       3              6,641
Than One
Claims Billed for Intensity Modulated Radiation
                                                                       32        258,163                       0                 0
Therapy Planning Services
Claims Billed With Modifiers                                           20        113,184                       1            (1,969)
 Outpatient Totals                                                   164     $1,836,159                      67        $134,586


Inpatient
Claims Billed With High Severity Level
                                                                       39    $1,677,471                        3            $63,320
Diagnosis-Related Group Codes
Claims Paid in Excess of Charges                                       33      1,172,320                       1             24,738
Transfers                                                               1         44,191                       1             21,258
Claims With Payments Greater Than $150,000                              1        668,622                       1             12,074
Psychiatric Facility Emergency Department
                                                                        5         39,133                       5               283
Adjustments
 Inpatient Totals                                                      79    $3,601,737                      11        $121,673


 Outpatient and Inpatient Totals                                     243     $5,437,896                      78        $256,259

      Notice: The table above illustrates the results of our review by risk area. In it, we have organized outpatient and
      inpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
      billing errors we found at the University of Utah Hospital. Because we have organized the information differently,
      the information in the individual risk areas in this table does not match precisely with this report’s findings.




                                                              13
                               Page 1 of 2


APPENDIX B: AUDITEE COMMENTS
Page 2 of 2
